TRULINCS 48591066 - ZINNER, EDWARD - Unit: LOR-C-A

FROM: 48591066
TO:
SUBJECT: Proof of Service Supreme Court
DATE: 08/10/2021 03:43:53 PM
No.

IN THE SUPREME COURT OF THE UNITED STATES

EDWARD ZINNER
Petitioner

v
UNITED STATES OF AMERICA
Respondent.

PROOF OF SERVICE
I, Edward Zinner, Petitioner, pro se, do declare that on this date, Aw§eet J7_, 2021, as required by Supreme
Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPEROUS and PETITION FOR
WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States mail properly addressing to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses are as follows:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Office of the United States Attorney
c/o Justin Ashenfelter, AUSA
615 Chestnut Street, Suite 1250
Philadelphia, PA 19106-4404

I declare under the penalty of perjury that the foregoing is true and correct.
Executed on August 9 • 2021
Respectfully submitted,

1

Edward Zinner, pro se
Reg# 48591-066
FPC Loretto
PO BOX 1000
Cresson, PA 16630

TRULINCS 48591066 - ZINNER, EDWARD - Unit: LOR-C-A

FROM: 48591066
TO:
SUBJECT: Cover Letter for AUSA Ashenfleter
DATE: 09/05/2021 10:13:18AM
Edward Zinner
Reg# 48591-066
FPC Loretto
PO BOX 1000
Cresson, PA 16630
Office of the United States Attorney
do Justin Ashenfelter, AUSA
615 Market Street, Suite 1250
Philadelphia, PA 19106-4404
September 9, 2021
Re: Petition for Writ of Certiorari, Zinner v United States, Appeal From 3rd Circuit No. 20-2961
Dear Mr. Ashenfelter,
Please find enclosed a copy of my Petition for Writ of Certiorari and Appendix filed with the United States Supreme Court in the
above referenced matter. Also a motion to proceed informa pauperous.
Sincerely,

fa——

Edward Zinner, pro se

TRULINCS 48591066 - ZINNER, EDWARD - Unit: LOR-C-A

FROM: 48591066
TO:
SUBJECT: Cover Letter to Solicitor General
DATE: 09/05/2021 10:14:56 AM
Edward Zinner
REG# 48591-066
FPC Loretto
PO BOX 1000
Cresson, PA 16630
Solicitor General of The United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
Re: Petition for Writ of Certiorari, Zinner v United States, Appeal From the 3rd Circuit, No.
Dear Solicitor General,
Please find enclosed a copy of a Petition for Writ of Certiorari, Appendix and Motion to proceed In Forma Pauperous filed with
The United States Supreme Court in the above referenced matter. A copy of the Appendix is enclosed as well.
Thank you for your time and consideration.
Sincerely,
EdwardZinner, pro se

